State of California
DEPARTMENT OF JUSTICE

XAVIER BECERRA
Attorney General

1300 I STREET
SACRAMENTO, CA 95814

Telephone: (916) 210-6269
E-Mail: Sam.Siegel@doj.ca.gov

January 22, 2020
Via Electronic Filing System and Commercial Courier
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

California, et al. v. Texas, et al., No. 19-840

Dear Mr. Harris:
The state petitioners write in response to the request by the state and individual
respondents for an extension of time in which to file their responses to the petition. Petitioners
would not normally object to an extension request of this nature. Under the circumstances here,
however, petitioners respectfully oppose any extension request. Petitioners recognize that the
Court denied the motion to expedite consideration of the petition. After full certiorari-stage
briefing, however, the Court may decide that it is appropriate to grant review and decide the case
this Term. See Pet. 16-19. While denying the extension request would preserve that option,
granting the request would foreclose it.
Sincerely,

Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

January 22, 2020
Page 2
cc:

Douglas N. Letter
General Counsel
U.S. House of Representatives
Noel J. Francisco
Solicitor General
United States Department of Justice
Kyle D. Hawkins
Solicitor General
Office of the Attorney General
State of Texas
Robert Henneke
Texas Pnblic Policy Foundation
Center for the American Future

